_________________

APPENDIX
_________________

Case 17-3741, Document 95, 07/01/2020, 2875412, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
1st day of July, two thousand twenty.
________________________________________
United States of America,
Appellee,
ORDER
v.

Docket No: 17-3741

Andy Williams,
Defendant - Appellant.
_______________________________________
Appellant, Andy Williams, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

A0001

44

930 FEDERAL REPORTER, 3d SERIES

a minor victim to experience mental
degradation and harm.
(4)

The defendant’s below-Guidelines
sentence of 78 months’ imprisonment was not substantively unreasonable.

(5)

The District Court plainly erred by
failing to adequately justify its imposition of a special condition of
supervised release that prohibited
the defendant from having direct
contact with minors without preapproval from the Probation Office.

For the foregoing reasons, we AFFIRM
the May 15, 2018 judgment of the District
Court, but REMAND the cause for further consideration only as to Special Condition No. 2, with instructions that the
District Court either state on the records
its reasons for imposing that special condition, or modify the sentence to eliminate
that special condition.

,
UNITED STATES of America,
Appellee,

ior District Judge, 2016 WL 4542352,
adopted the report and recommendation of
Cheryl L. Pollak, United States Magistrate Judge, 2016 WL 11447844, and denied defendant’s motion to suppress loaded
firearm found in center console of rental
car that defendant had been driving, and
after a third jury trial, defendant was convicted in the District Court, LaShann DeArcy Hall, J., of being a felon in possession
of a firearm. Defendant appealed.
Holdings: The Court of Appeals, Livingston, Circuit Judge, held that:
(1) initial inventory search and second inventory search of rental car were conducted pursuant to standardized procedures;
(2) second inventory search was objectively
reasonable;
(3) exclusion of defendant’s post-arrest exculpatory statements denying ownership of gun found in center console,
which statements were offered under
completeness doctrine, was not an
abuse of discretion; and
(4) defendant’s post-arrest oral statements
to police concerning his gang membership, and his offer to assist police in
finding drugs and weapons, were admissible as other-act evidence.
Affirmed.

v.
Andy WILLIAMS, Defendant-Appellant.
No. 17-3741-cr
August Term 2018
United States Court of Appeals,
Second Circuit.
Argued: November 29, 2018
Decided: July 9, 2019
Background: In prosecution for being a
felon in possession of a firearm, the United
States District Court for the Eastern District of New York, Sterling Johnson, Sen-

1. Criminal Law O1139, 1158.12
When reviewing a district court’s decision on a suppression motion, the court of
appeals reviews the district court’s factual
findings for clear error and its legal conclusions de novo.
2. Searches and Seizures O66
When police take a vehicle into custody, they may search the vehicle and make
an inventory of its contents without need
for a search warrant and without regard to
whether there is probable cause to suspect

A0002

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

that the vehicle contains contraband or
evidence of criminal conduct. U.S. Const.
Amend. 4.
3. Searches and Seizures O66
Inventory searches of vehicles taken
into custody are excepted from the probable cause and search warrant requirements because they are conducted by the
government as part of a community caretaking function that police must perform
separate and apart from their responsibility to detect crime. U.S. Const. Amend. 4.
4. Searches and Seizures O66
The objectives of inventory searches
of vehicles taken into custody, which are
wholly independent of whether the contents of the vehicle figure in any way in a
criminal investigation or prosecution, are:
(1) to protect the owner’s property while it
is in police custody; (2) to protect the
police against spurious claims of lost or
stolen property; and (3) to protect the
police from potential danger.
5. Searches and Seizures O66
Because of the danger to privacy interests posed by allowing police officers to
conduct warrantless searches of vehicles
taken into custody, inventory searches
must be performed using standardized criteria or established routine. U.S. Const.
Amend. 4.
6. Criminal Law O392.49(4)
A police department’s standardized
procedures for warrantless inventory
searches of vehicles taken into custody
may be established at trial by written
rules and regulations or by testimony regarding the department’s standard practices. U.S. Const. Amend. 4.
7. Searches and Seizures O66
Initial inventory search of rental car
that arrestee had been driving, and second
inventory search after detective at police

45

station overheard arrestee make a telephone call in which arrestee nervously insisted to other person on the line that he
or she needed to ‘‘come get this car right
now,’’ during which second inventory
search a loaded firearm was found in center console, for which paneling was removed without special tool and it could be
snapped back into place, were conducted
pursuant to police department’s standardized procedures for inventory searches;
written patrol guide stated that officers
should search interior of a vehicle taken
into custody thoroughly, including any
area that might contain valuables, guide
authorized compartments to be forced
open with minimal damage, and searches
behind paneling of center consoles were
common practice for department. U.S.
Const. Amend. 4.
8. Searches and Seizures O66
Every detail of a police department’s
procedure for searching a vehicle taken
into custody need not be governed by a
standardized policy, in order for a warrantless inventory search of the vehicle to
be valid. U.S. Const. Amend. 4.
9. Searches and Seizures O66
Second inventory search of rental car
that arrestee had been driving, after detective at police station overheard arrestee
make a telephone call in which arrestee
nervously insisted to other person on the
line that he or she needed to ‘‘come get
this car right now,’’ was conducted pursuant to a standardized procedure, though
police department’s written patrol guide
was silent as to validity of multiple inventory searches. U.S. Const. Amend. 4.
10. Searches and Seizures O58
For a police department’s inventory
search procedures to be sufficiently standardized, the procedures must simply be
adequate to safeguard the interests protected by the Fourth Amendment, so that

A0003

46

930 FEDERAL REPORTER, 3d SERIES

officers are not allowed so much latitude as
to whether, when, and how to search that
inventory searches, in practice, become a
purposeful and general means of discovering evidence of crime.
U.S. Const.
Amend. 4.
11. Searches and Seizures O23
For searches, the ultimate touchstone
of the Fourth Amendment is reasonableness. U.S. Const. Amend. 4.
12. Searches and Seizures O66
Second inventory search of rental car
that arrestee had been driving, after detective at police station overheard arrestee
make a telephone call in which arrestee
nervously insisted to other person on the
line that he or she needed to ‘‘come get
this car right now,’’ was objectively reasonable under Fourth Amendment, even if
officers had been motivated, at least in
part, by expectation that evidence would
be discovered; arrestee’s own behavior
suggested a need to go back and check
police department’s work in connection
with the inventory search that had just
been performed, and fact that some piece
of property may have been missed during
initial search did not make it less important to secure that property, protect police
from claims of theft, and ensure that the
property was safeguarded if dangerous.
U.S. Const. Amend. 4.
13. Searches and Seizures O23
In general, a search is reasonable under the Fourth Amendment, regardless of
the individual officer’s state of mind, as
long as the circumstances, viewed objectively, justify the search. U.S. Const.
Amend. 4.
14. Searches and Seizures O66
When officers, following standardized
inventory procedures, seize, impound, and
search a car in circumstances that suggest a probability of discovering criminal

evidence, the officers will inevitably be
motivated in part by criminal investigative
objectives, but such motivation cannot
reasonably disqualify an inventory search
that is performed under standardized procedures for legitimate custodial purposes.
U.S. Const. Amend. 4.
15. Searches and Seizures O66
The relevant ‘‘purpose’’ at issue in
assessing programmatic searches and seizures conducted without individualized suspicion, such as an inventory search of a
vehicle taken into custody, is not the officer’s subjective purpose in searching, but
the purpose of the administrative program
itself. U.S. Const. Amend. 4.
16. Criminal Law O1153.1
The Court of Appeals reviews the District Court’s evidentiary rulings under a
deferential abuse of discretion standard,
and it will disturb an evidentiary ruling
only where the decision to admit or exclude evidence was manifestly erroneous.
17. Criminal Law O396(2)
At common law, the doctrine of completeness arose to permit a party against
whom a part of a writing or utterance has
been introduced to, in his turn, complement it by putting in the remainder, in
order to secure for the tribunal a complete
understanding of the total tenor and effect
of the whole.
18. Criminal Law O396(2)
The federal rule of evidence partially
codifying the common-law completeness
doctrine requires generally that adversaries be allowed to prevent omissions that
render matters in evidence misleading.
Fed. R. Evid. 106.
19. Criminal Law O396(2)
The common-law completeness doctrine, which is partially codified in the
federal rules of evidence, has never re-

A0004

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

quired the admission of portions of a statement that are neither explanatory of nor
relevant to the admitted passages. Fed.
R. Evid. 106.
20. Criminal Law O396(2)
Ultimately, it is for the district court,
in its discretion, to determine if the common-law completeness doctrine, which is
partially codified in the federal rules of
evidence, applies. Fed. R. Evid. 106.
21. Criminal Law O396(2)
The federal rule of evidence partially
codifying the common-law completeness
doctrine does not cover oral statements
and for practical reasons is limited to writings and recorded statements, while the
common-law rule of completeness is substantially broader, covering not only writings taken out of context, but also the
truncated use of acts, declarations, and
conversations. Fed. R. Evid. 106.
22. Criminal Law O396(2)
The common-law completeness doctrine persists in the wake of the federal
rule of evidence partially codifying the doctrine. Fed. R. Evid. 106.
23. Witnesses O225
For oral statements, the federal rule
of evidence instructing courts to exercise
reasonable control over the mode and order of examining witnesses and presenting
evidence both empowers and obligates district courts to require a party offering
testimony as to an utterance to present
fairly the substance or effect and context
of that statement, just as the common-law
completeness doctrine requires. Fed. R.
Evid. 611(a).
24. Criminal Law O396(2)
Whether the court operates under the
embodiment, in the federal rules of evidence, of the common-law doctrine of completeness with respect to writings, or, with

47

respect to oral statements, the more general provision of the federal rules of evidence instructing courts to exercise reasonable control over the mode and order of
examining witnesses and presenting evidence, courts remain guided by the overarching principle that it is the trial court’s
responsibility to exercise common sense
and a sense of fairness so as to require
completion, whether contemporaneous or
on cross-examination, in instances in which
testimony regarding oral statements is
elicited in fragments that fail to present
the tenor of the utterance as a whole.
Fed. R. Evid. 106, 611(a).
25. Criminal Law O396(2)
While a party cannot circumvent the
hearsay rule simply by invoking the doctrine of completeness so as to render
otherwise inadmissible evidence admissible for its truth, nevertheless, when the
omitted portion of a statement is properly introduced to correct a misleading impression or place into context that portion already admitted, it is for this very
reason admissible for a valid, nonhearsay
purpose: to explain and ensure the fair
understanding of the evidence that has
already been introduced. Fed. R. Evid.
106, 611(a).
26. Criminal Law O396(2)
The completeness doctrine can adequately fulfill its function only by permitting the admission of some otherwise inadmissible evidence when the court finds in
fairness that the proffered evidence should
be considered contemporaneously. Fed.
R. Evid. 106, 611(a).
27. Criminal Law O413.89
Pretrial exclusion of defendant’s postarrest exculpatory statements denying
ownership of gun found in center console
of rented vehicle, which statements were
offered under completeness doctrine, with
respect to detectives’ expected testimony

A0005

48

930 FEDERAL REPORTER, 3d SERIES

that defendant had later admitted to his
ownership of gun, was not an abuse of
discretion, in prosecution for being a felon
in possession of a firearm, in absence of
showing by defendant that admission of his
initial statements denying ownership of
gun would be necessary to explain his later
statements that the gun was his, or to
place later statements in context, or to
avoid misleading the jury, or to ensure fair
and impartial understanding of later statements. Fed. R. Evid. 611(a).
28. Criminal Law O413.89
While it is not uncommon for a suspect, upon interrogation by police, to first
claim in a self-serving manner that he did
not commit a crime, only thereafter to
confess that he did, the rule of completeness does not require the admission of
self-serving exculpatory statements in all
circumstances. Fed. R. Evid. 106, 611(a).
29. Criminal Law O413.89
Under the deferential abuse of discretion standard applicable to a district
court’s evidentiary rulings, defendant’s
contention that the jury deadlocks, at defendant’s first two trials for being a felon
in possession of a firearm, demonstrated
the importance of admitting his post-arrest
exculpatory statements denying ownership
of gun found in center console of rented
vehicle, did not necessarily mean that district court abused its discretion by ruling
before third trial, at which government
would for the first time present testimony
from the woman who had rented the vehicle, that defendant’s post-arrest exculpatory statements would not be admissible under completeness doctrine, with respect to
detectives’ expected testimony that defendant had later admitted to his ownership
of gun. Fed. R. Evid. 611(a).
30. Criminal Law O368.5
Evidence of a defendant’s uncharged
crimes is not admissible to prove propensi-

ty to commit the crime charged. Fed. R.
Evid. 404(b)(1).
31. Criminal Law O368.4
Under the inclusionary approach to
other-crimes evidence, such evidence is admissible if offered for any purpose other
than to show a defendant’s criminal propensity. Fed. R. Evid. 404(b)(2).
32. Criminal Law O1153.5
Admission of other-crime evidence is
reviewed for abuse of discretion, and the
district court’s ruling stands unless it was
arbitrary and irrational. Fed. R. Evid.
404(b).
33. Criminal Law O371.51, 372.56,
372.58
Defendant’s post-arrest oral statements to police concerning his gang membership, and his offer to assist police in
finding drugs and weapons, which statements were made after defendant had executed a written statement that ‘‘I had the
gun,’’ were admissible as other-act evidence, in prosecution for being a felon in
possession of a firearm, relating to loaded
gun found in center console of rented vehicle, to meet the defense argument that
defendant’s post-arrest written statement
was not a confession because it was not an
admission to knowing possession of the
weapon but simply an acknowledgment
that defendant was driving the car in
which the gun was found, and were also
admissible to show defendant’s intent and
opportunity to possess the loaded weapon.
Fed. R. Evid. 404(b)(2).
34. Criminal Law O371.51, 372.55,
372.58
Admission, as other-act evidence, of
defendant’s post-arrest oral statements to
police concerning his gang membership
and his offer to assist police in finding
drugs and weapons, was not unfairly prejudicial, in prosecution for being a felon in

A0006

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

possession of a firearm, relating to loaded
gun found in center console of rented vehicle; evidence was probative for non-propensity purposes concerning clarification
of defendant’s written statement ‘‘I had
the gun,’’ as well as to show defendant’s
intent and opportunity to possess a loaded
weapon, and district court mitigated any
potential prejudice by issuing a limiting
instruction restricting jury’s use of gangaffiliation evidence. Fed. R. Evid. 403,
404(b)(2).
35. Criminal Law O1043(2)
The federal rule of evidence regarding
appellate preservation of evidentiary
claims, under which a party must object in
district court and must state the specific
ground unless it is apparent from context,
is ordinarily applied strictly, and where a
party made no objection that clearly stated
the specific ground asserted on appeal, a
claim of error is unavailing. Fed. R. Evid.
103(a).
36. Criminal Law O1043(3)
Defendant, by making only a ‘‘general
objection,’’ based on government’s alleged
undue delay, to admission of images from
social networking website showing him
making hand signs that were gang signs,
did not make an objection clearly stating
that such evidence was impermissible evidence of propensity to commit crimes, as
would be required to preserve that issue
for appellate review. Fed. R. Evid. 103(a),
404(b).
37. Criminal Law O1036.1(1), 1137(5)
Where an objection has not been preserved at trial, the Court of Appeals has
discretion to correct evidentiary errors
that were forfeited because not timely
raised in the District Court, but no such
discretion applies when there has been
true waiver. Fed. R. Evid. 103(a).

49

38. Criminal Law O1030(1), 1137(1)
Forfeiture of an objection, by failing
to timely raise it in the district court, does
not preclude appellate consideration of a
claim in the presence of plain error,
whereas waiver of an objection, through an
intentional decision not to assert it, necessarily extinguishes the claim altogether.
Fed. R. Crim. P. 52(b).
39. Criminal Law O1030(1)
A defendant’s claim is forfeited for
appellate review when the defendant, in
most instances due to mistake or oversight, fails to assert an objection.
40. Criminal Law O1137(1)
A defendant’s claim is waived for appellate review when the defendant makes
an intentional decision not to assert a
right, or put another way, acts intentionally in pursuing, or not pursuing, a particular course of action.
41. Criminal Law O1137(1)
An identifiable tactical benefit is not a
prerequisite to identifying waiver of appellate review based on failure to object at
trial, where the totality of circumstances
otherwise demonstrate the requisite intentional action.
42. Criminal Law O1137(5)
Defendant, in making only a ‘‘general
objection,’’ based on government’s alleged
undue delay, to admission of images from
social networking website showing him
making hand signs that were gang signs,
acted intentionally and therefore waived
for appellate review a claim that such evidence was impermissible evidence of propensity to commit crimes; district court
specifically asked defendant, twice, whether he had any objections based on ‘‘relevance’’ or ‘‘anything like that,’’ and defendant confirmed both times that he had no
other objections. Fed. R. Evid. 103(a),
404(b).

A0007

50

930 FEDERAL REPORTER, 3d SERIES

Appeal from United States District
Court for the Eastern District of New
York (DeArcy Hall, J.)
For Appellee: Tanya Hajjar, Assistant
United States Attorney (Jo Ann M. Navickas, Assistant United States Attorney, on
the brief), for Richard P. Donoghue, United States Attorney for the Eastern District of New York, Brooklyn, New York.
For
Defendant-Appellant:
Darrell
Fields, Federal Defenders of New York,
Inc., Appeals Bureau, New York, New
York.
Before: KEARSE, LIVINGSTON, and
CARNEY, Circuit Judges.
Debra Ann Livingston, Circuit Judge:
Defendant-Appellant Andy Williams
(‘‘Williams’’) appeals from a judgment of
the United States District Court for the
Eastern District of New York (DeArcy
Hall, J.), entered November 14, 2017, following a jury trial, convicting him of being
a felon in possession of a firearm. On
appeal, Williams argues that (1) the loaded firearm found in the center console of
the rental car that he was driving on the
day of his arrest should have been suppressed at trial because it was discovered
during an improper second inventory
search of the vehicle; (2) his exculpatory
post-arrest statements denying knowledge
or ownership of the firearm should have
been admitted when his oral and written
statements confessing ownership were introduced; and (3) evidence as to his gang
affiliation and willingness to assist police
in finding guns and drugs should have
been excluded under Fed. R. Evid. 403
and 404(b).
We conclude that (1) police did not violate the Fourth Amendment by returning
1.

The factual background presented here is
derived principally from the trial transcript

to search Williams’s car again after detectives overheard Williams make a phone
call that aroused their suspicion that they
may have missed something of value in the
car during their initial inventory search;
(2) contrary to Williams’s claim, neither
the doctrine of completeness nor the Fifth
Amendment mandated the admission of his
post-arrest statements denying ownership
or knowledge of the gun; and (3)
Williams’s arguments as to the inadmissibility of the evidence of his gang affiliation
and willingness to assist the police either
(a) fail because the evidence was properly
admitted pursuant to Rule 404(b) and was
not unfairly prejudicial or (b) are waived.
Accordingly, we affirm the judgment of the
district court.
BACKGROUND
I.

Factual Background 1

On the clear morning of August 27, 2015,
three plainclothes detectives from the New
York City Police Department’s (‘‘NYPD’’)
Brooklyn South Gang Squad sat in an
unmarked car on Utica Avenue in Brooklyn. Inside a nearby funeral home, mourners were gathered for funeral services.
The deceased had been in a gang, so Detective Dominick Latorre (‘‘Detective Latorre’’) and his colleagues were keeping an
eye on the surrounding area in case rival
gangs showed up looking to cause trouble.
At around 10 A.M., the detectives spotted
a white Nissan sedan traveling at a high
rate of speed. The driver was recklessly
weaving between traffic lanes so as to cut
others off, and was heading in the direction of the funeral home. The detectives
gave chase, caught up to the Nissan, and
signaled to the driver, Williams, to pull
over. Williams pulled to the side of the
road.
and otherwise reflects information in the district court record.

A0008

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

Detective Latorre approached the driver’s side of the car and asked Williams,
who was alone in the sedan, for his license
and registration. Williams provided his license and a rental agreement for the Nissan. Detective Latorre immediately observed that the car had been rented to
someone else, Jennisha Hosam (‘‘Hosam’’),
and that Williams was not listed in the
agreement as an authorized driver.
Williams claimed the Nissan was his ‘‘girl’s
car.’’ GA-55.2 The detectives then arrested
Williams for unauthorized use of the rental
car as well as for speeding and driving
recklessly. He was placed in the back of
the detectives’ car and transported to the
nearest precinct by Detective Latorre and
one of his colleagues, Detective Joseph
Fichter (‘‘Detective Fichter’’). The third
detective, Detective Michael Christiano,
followed in Williams’s car and parked it
out front.
At the precinct, Williams was put in a
holding cell while the detectives began to
process the arrest. Detective Fichter commenced an ‘‘inventory search’’ of
Williams’s car while Detective Latorre observed. According to Detective Latorre, an
inventory search is mandatory in arrest
processing: ‘‘[I]ts importance is to make
sure that things are returned to the proper
owner and that the wrong things or dangerous things are not returned to anyone.’’
GA-38–39. The car’s interior, glove box,
and trunk were all searched, yielding several items, including: (1) a roll of duct tape,
in the glove box; (2) a pair of black gloves,
from the driver’s side door; and (3) a black
mask made of hard plastic, which Detective Fichter discovered in the trunk of the
car, wedged inside the enclosed area containing the spare tire. Detective Fichter
also recovered postmarked envelopes from
2.

‘‘A’’ refers to the Appendix for DefendantAppellant Andy Williams; ‘‘SPA’’ refers to the
Special Appendix for Defendant-Appellant

51

the Nissan dated August 21, 2015, and
addressed to Williams. After finding these
items, Detectives Latorre and Fichter
went back inside the precinct to continue
processing Williams’s arrest.
As Detective Latorre was fingerprinting
Williams, Williams asked what was going
to happen to the rental car. Detective Latorre informed him that the car was probably going to be towed back to the rental
agency. Seemingly alarmed by this prospect, Williams said ‘‘I’m entitled to a phone
call. I want to make one.’’ SPA-6. Detective Latorre handed Williams a phone.
Williams proceeded to call someone (he
said it was his girlfriend) and, standing
about two or three feet away from Detective Latorre, told this person that he or
she needed to ‘‘come get this car right
now’’ because the police were ‘‘looking to
tow it.’’ GA-41–42; SPA-6–7. Williams
spoke at a high pitch and fast pace that
Detective Latorre took to indicate that
Williams’s ‘‘stress level was elevated TTT
he sounded definitely more stressed.’’ GA42.
Detective Latorre thought Williams’s
agitation was curious. He and Detective
Fichter decided to go back and search the
car again to make sure that ‘‘there was
[not] something more important in the vehicle that we didn’t see yet.’’ GA-42–43;
SPA-7. As Detective Fichter put it, ‘‘I felt
I missed something.’’ GA-97. On the way to
the car, in what turned out to be a fortunate encounter, they ran into Detective
Ashley Breton (‘‘Detective Breton’’), who
volunteered to help as ‘‘an extra pair of
eyes.’’ GA-42; SPA-8. After just one to two
minutes of searching the interior of the
car, including the front area, arm rests,
and front and rear seats, Detective Breton
popped open the car’s center console,
Andy Williams; ‘‘GA’’ refers to the Government Appendix.

A0009

52

930 FEDERAL REPORTER, 3d SERIES

which Detective Fichter had not previously
examined. There, Detective Breton discovered a loaded gun. According to Detective
Breton, though the console in the Nissan is
not designed to open, it can be opened
easily with no need for special tools or
force by unsnapping three plastic pieces
‘‘that connect to the left side paneling’’ and
that can be easily snapped back into place
to close the console. A-110; GA-11. Indeed,
Detective Breton testified that he usually
checks inside car consoles during inventory searches, because he has located contraband there ‘‘more than once.’’ A-111.
After the firearm was discovered,
Williams was rearrested and taken to a
private room to be interviewed. There, Detectives Latorre and Fichter read him his
Miranda rights, using a standard form.
Williams agreed to waive his rights and
signed the form, affirming his willingness
to answer questions. Williams thereafter
orally acknowledged that the firearm belonged to him and, at the detectives’ request, he wrote out a statement memorializing this confession. The signed statement
reads in full: ‘‘I had the gun. I had no
intenten of hurting any1 Im sorry.’’ A-162;
GA-48–49. During the same interview,
Williams told the detectives that he is a
member of the Crips gang, that he is also
known as ‘‘Spillz,’’ and that he associates
with people in both the Crips and Folk
Nation gangs. Williams further indicated
that he was ‘‘willing to work,’’ and could
‘‘get firearms and narcotics.’’3 GA-104–05,
118.
Hosam, who rented the white Nissan
sedan, testified at Williams’s trial. A student at Borough of Manhattan Community
College, Hosam gave Williams a lift one
day when she saw him in the Brooklyn
3.

At trial, in addition to testimony regarding
Williams’s post-arrest statements acknowledging his gang membership, the government
introduced images from Williams’s public Fa-

neighborhood where her son goes to day
care. (She had known Williams for about a
year at that time, she ran into him periodically, and she was not his girlfriend.) Hosam was then driving a red Nissan Altima
that she had rented for the weekend. Upon
learning that Hosam was driving a rental
car, Williams asked if she would be willing
to rent a car for him, as he did not have a
credit card. Hosam first extended the rental of the red Nissan, giving Williams its
use. Williams paid Hosam for the rental in
cash, which ‘‘worked in [her] favor too
pretty much,’’ as she ‘‘could use the car as
well without paying for it.’’ GA-74, 80.
When the red Nissan Altima was shortly
thereafter involved in a minor accident,
Hosam exchanged it for a light-colored
vehicle, which she also provided to
Williams. The only occasion on which she
drove this second car, which she did not
recall well, was ‘‘[t]he day that we exchanged it,’’ and after providing the car to
Williams, she saw him only twice between
July and late August 2015. GA-76, 141. She
left no personal items in the second car,
and specifically left neither gloves nor a
mask in the vehicle. She also did not leave
a firearm in the car and had never owned
one.
II.

Procedural History

Williams was indicted by a grand jury in
the Eastern District of New York in October 2015, less than two months after his
arrest, and was charged with being a felon
in possession of a firearm in violation of 18
U.S.C. § 922(g)(1). Williams pled not
guilty. He moved to suppress the firearm,
arguing that police had violated the Fourth
Amendment when, after conducting the
first inventory search, they returned to the
cebook page. These images depict Williams
and others making hand signs identified by
Detective Fichter as associated with the Crips
or Folk Nation gangs.

A0010

53

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

car following his phone call and located the
concealed and loaded weapon. The magistrate judge held an evidentiary hearing at
which Detectives Latorre and Breton testified. The magistrate judge then issued a
Report and Recommendation recommending that Williams’s suppression motion be
denied. The district court adopted the Report and Recommendation and denied the
motion.
The first of what would ultimately be
three jury trials commenced on October
24, 2016, and ended in a mistrial two days
later because the jury could not reach a
unanimous verdict. The second trial commenced on December 12, and again ended
in a mistrial. The third trial commenced on
May 23, 2017, and a week later the jury
convicted Williams of being a felon in possession of a firearm. After Williams’s conviction, Judge DeArcy Hall sentenced him
to 56 months’ imprisonment to be followed
by three years’ supervised release.
Williams timely appealed.
DISCUSSION
Williams makes three arguments on appeal. First, he argues that the second
search of his car was not a valid inventory
search pursuant to the Fourth Amendment
and that the loaded gun, accordingly,
should have been suppressed. Second, he
argues that the district court erred by
precluding him from introducing his postarrest statements in which, before admitting to ownership of the weapon, he denied
any knowledge of it. Finally, Williams argues that the district court erred by allowing the government to introduce his postarrest statements regarding his gang affiliation, as well as the images from his Facebook page, because this evidence was inadmissible propensity evidence and unfairly
prejudicial. We address each argument in
turn.

I.

The Car Searches

[1] Williams first argues that the district court erred in denying his motion to
suppress the gun seized during the second
search of his car on the theory that this
second search violated the Fourth Amendment. In Williams’s view, only the detectives’ initial search of the car was a valid
inventory search. He contends that the
second search—conducted after Detective
Latorre overheard Williams make a phone
call during which Williams nervously insisted to the other person on the line that
he or she needed to ‘‘come get this car
right now’’—was a ‘‘purposeful investigatory search’’ and not an inventory search
permissible among ‘‘the category of ‘caretaking activities’ that police departments
[must] perform.’’ Appellant Br. 34. When
reviewing a district court’s decision on a
suppression motion, we review the district
court’s factual findings for clear error and
its legal conclusions de novo. United States
v. Stewart, 551 F.3d 187, 190 (2d Cir.
2009). For the following reasons, we conclude that Williams’s Fourth Amendment
claim is unavailing.
* * *
[2–4] The Supreme Court has long
recognized that when police ‘‘take a vehicle
into custody, they may search the vehicle
and make an inventory of its contents
without need for a search warrant and
without regard to whether there is probable cause to suspect that the vehicle contains contraband or evidence of criminal
conduct.’’ United States v. Lopez, 547 F.3d
364, 369 (2d Cir. 2008) (citing Illinois v.
Lafayette, 462 U.S. 640, 643, 103 S.Ct.
2605, 77 L.Ed.2d 65 (1983)). These ‘‘inventory searches’’ are excepted from the
probable cause and warrant requirements
‘‘because they are conducted by the government as part of a community caretaking function’’ that police must perform
separate and apart from their responsibili-

A0011

54

930 FEDERAL REPORTER, 3d SERIES

ty to detect crime. Colorado v. Bertine,
479 U.S. 367, 381, 107 S.Ct. 738, 93
L.Ed.2d 739 (1987) (internal quotation
marks omitted); Lopez, 547 F.3d at 369.
We have described the objectives of inventory searches as ‘‘(1) to protect the owner’s property while it is in police custody;
(2) to protect the police against spurious
claims of lost or stolen property; and (3) to
protect the police from potential danger.’’
Lopez, 547 F.3d at 369. ‘‘The service of
these objectives is wholly independent of
whether the contents of the car figure in
any way in a criminal investigation or
prosecution.’’ Id. at 369–70.
[5, 6] Because of the ‘‘danger to privacy interests’’ posed by allowing police officers to conduct warrantless searches, see
id. at 370, the Supreme Court has required
that inventory searches be performed using ‘‘standardized criteria or established
routine,’’ Florida v. Wells, 495 U.S. 1, 4,
110 S.Ct. 1632, 109 L.Ed.2d 1 (1990); see
South Dakota v. Opperman, 428 U.S. 364,
372, 96 S.Ct. 3092, 49 L.Ed.2d 1000 (1976)
(‘‘[I]nventories pursuant to standard police
procedures are reasonable.’’); see also 3
LaFave, Search and Seizure: A Treatise on
the Fourth Amendment 644 (4th ed. 2004)
(‘‘What is needed in the inventory context,
then, as is true of many other types of
inspections or regulatory searches, is not
probable cause but rather a regularized set
of procedures, which adequately guards
against arbitrariness.’’). A police department’s standardized procedures may be
established at trial by written rules and
regulations or by testimony regarding the
department’s standard practices. See United States v. Thompson, 29 F.3d 62, 65–66
(2d Cir. 1994).
[7] We first conclude, as the district
court did, that both searches of Williams’s
car were conducted in accordance with the
NYPD’s standardized procedures for inventory searches as described in the De-

partment’s Patrol Guide and in Detective
Breton’s testimony at the suppression
hearing. The Patrol Guide provides that
‘‘[w]henever [an automobile] comes into
the custody of [the NYPD],’’ officers
should ‘‘[s]earch the interior of the vehicle
thoroughly,’’ including ‘‘any area that may
contain valuables.’’ A-39 (emphasis added).
The Patrol Guide also authorizes officers
to ‘‘[f]orce open [the] trunk, glove compartment, etc.,’’ so long as it can ‘‘be done with
minimal damage.’’ A-39. Detective Breton
testified at the suppression hearing, based
on his ‘‘hundreds’’ of inventory searches,
that searching behind the paneling of a
car’s center console is a ‘‘common’’ practice. GA-8; A-110–11.
There is no dispute that the first search
followed NYPD procedures. As to the second, although his briefing to this Court did
not challenge the manner in which this
search was performed, at oral argument
Williams made much of the fact that during the second search, Detective Breton
had to ‘‘force open’’ the console of
Williams’s car by removing the console’s
paneling in order to reveal the gun. See
Recording of Oral Argument, United
States v. Williams, No. 17-3741 (2d Cir.
Nov. 29, 2018), at 5:00–7:20, 22:20–23:00.
However, the Patrol Guide specifically
says that officers can force open the
‘‘trunk, glove compartment, etc.,’’ if only
minimal damage will be done, and Detective Breton testified that it was common
for police to search center consoles during
inventory searches. A-39 (emphasis added); see A-110–11. Detective Breton also
testified that he did not have to use any
sort of ‘‘special tool’’ to remove the paneling; nor did it take much force; nor was
any damage done to the car, as the paneling could be ‘‘snap[ped] right back into
place.’’ GA-11–12; A-110. The district court
did not err in determining that removing
the paneling to check inside the car’s cen-

A0012

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

ter console was consistent
NYPD’s standard procedures.

with

the

[8–10] Williams principally argues as
to the second inventory search that it was
impermissible for the detectives to conduct
the second search at all, pointing out, at
the start, that the Patrol Guide is silent as
to the validity of multiple inventory
searches. However, we have stated that
‘‘we do not think TTT every detail of search
procedure must be governed by a standardized policy.’’ Lopez, 547 F.3d at 371
(emphasis added). For example, there need
not be a standardized policy as to ‘‘the
order in which different parts of [a] car
are searched, or whether officers performing the search need to report the results
on a standardized form.’’ Id. A police department’s procedures must simply be adequate to ‘‘safeguard the interests protected by the Fourth Amendment,’’ see id., so
that officers are not allowed ‘‘so much
latitude’’ as to whether, when, and how to
search that inventory searches, in practice,
become a ‘‘ ‘a purposeful and general
means of discovering evidence of crime.’ ’’
Wells, 495 U.S. at 4, 110 S.Ct. 1632 (quoting Bertine, 479 U.S. at 376, 107 S.Ct. 738).
Here, the second inventory search did not
run afoul of this principle, even if not
specifically provided for in the Patrol
Guide.
[11, 12] As for Williams’s broader
Fourth Amendment argument, the Supreme Court has repeatedly said that ‘‘the
ultimate touchstone of the Fourth Amendment is ‘reasonableness.’ ’’ Brigham City
v. Stuart, 547 U.S. 398, 403, 126 S.Ct. 1943,
164 L.Ed.2d 650 (2006); see Riley v. California, 573 U.S. 373, 381, 134 S.Ct. 2473,
189 L.Ed.2d 430 (2014) (same); see also
Maryland v. King, 569 U.S. 435, 447, 133
S.Ct. 1958, 186 L.Ed.2d 1 (2013) (noting
that the ‘‘ ‘ultimate measure of the constitutionality of a governmental search is
‘‘reasonableness’’ ’ ’’ (quoting Vernonia

55

School Dist. 47J v. Acton, 515 U.S. 646,
652, 115 S.Ct. 2386, 132 L.Ed.2d 564
(1995))). In the circumstances here, it was
eminently reasonable for the detectives to
conclude, as they did, that Williams’s own
behavior suggested a need to go back and
check their work in connection with the
inventory search that they had just performed. Williams’s phone call caused the
detectives to surmise, as Detective Latorre
stated during the suppression hearing,
that ‘‘there was something of value inside
the car that [they weren’t] yet aware of,’’
so that ‘‘a second search of the vehicle was
probably necessary’’ in order to complete
the inventory. A-59. The fact that some
piece of property may have been missed
during the initial search did not make it
less important to secure that property, to
protect the police from claims of theft, or
to ensure that the property be safeguarded if dangerous. Indeed, the need to ascertain that the inventory was complete and
that all items in the car had been located
was particularly acute in this case, given
that police were likely to return the car to
the rental agency, and ‘‘elemental reasons
of safety’’ required that any dangerous
instrument in the vehicle, such as the loaded weapon that they recovered, be located
so as not to ‘‘fall into untrained or perhaps
malicious hands.’’ See Cady v. Dombrowski, 413 U.S. 433, 443, 93 S.Ct. 2523, 37
L.Ed.2d 706 (1973) (noting police have a
community caretaking imperative to ensure that impounded automobiles do not
contain revolvers or other dangerous
items).
Williams contends that the search of the
Nissan by Detective Breton was not a
valid inventory search, even if consistent
with standard police practices, because the
officers’ purpose in looking over the car for
a second time was supposedly not to conduct an inventory, but ‘‘to validate [their]
suspicion and uncover evidence of a

A0013

56

930 FEDERAL REPORTER, 3d SERIES

crime.’’ Appellant Br. 34–35. We do not
believe that the suppression hearing record supports this conclusion. But even if
the record did clearly reflect that the officers were motivated, at least in part, by
the expectation that evidence would be
discovered in the car, Williams’s Fourth
Amendment argument would still be without merit.
[13, 14] In general, ‘‘[a]n action is ‘reasonable’ under the Fourth Amendment, regardless of the individual officer’s state of
mind, ‘as long as the circumstances,
viewed objectively, justify [the] action.’ ’’
Brigham City, 547 U.S. at 404, 126 S.Ct.
1943 (quoting Scott v. United States, 436
U.S. 128, 138, 98 S.Ct. 1717, 56 L.Ed.2d
168 (2006)); accord Laidley v. City and
Cty. of Denver, 477 Fed.Appx. 522, 524
(10th Cir. 2012) (Gorsuch, J.) (‘‘[Plaintiff’s]
failure to argue that the towing of his car
was not objectively justified under the
community caretaking doctrine (whatever
any officer’s actual motivations happened
to be) unavoidably spells the end to his
Fourth Amendment claim.’’). As we recognized in United States v. Lopez, ‘‘[w]hen
officers, following standardized inventory
procedures, seize, impound, and search a
car in circumstances that suggest a probability of discovering criminal evidence, the
officers will inevitably be motivated in part
by criminal investigative objectives. Such
motivation, however, cannot reasonably
disqualify an inventory search that is performed under standardized procedures for
legitimate custodial purposes.’’ 547 F.3d at
372.
[15] We recognize that the Supreme
Court, in Colorado v. Bertine, affirmed
that inventory searches are reasonable for
Fourth Amendment purposes when ‘‘administered in good faith,’’ ‘‘according to
standard criteria and on the basis of something other than suspicion of evidence of
criminal activity.’’ 479 U.S. 367, 374–75,

107 S.Ct. 738, 93 L.Ed.2d 739 (1987) (emphasis added). Moreover, the Court in dicta has suggested that the inventory search
doctrine may be a rare example in which
an officer’s improper motive can invalidate
‘‘objectively justifiable behavior under the
Fourth Amendment.’’ Kentucky v. King,
563 U.S. 452, 464, 131 S.Ct. 1849, 179
L.Ed.2d 865 (2011) (quoting Whren v.
United States, 517 U.S. 806, 812, 116 S.Ct.
1769, 135 L.Ed.2d 89 (1996)). But the Supreme Court has also cautioned that the
relevant ‘‘purpose’’ at issue in assessing
programmatic searches and seizures conducted without individualized suspicion,
such as the inventory search at issue here,
is not the officer’s subjective purpose in
searching, but the purpose of the administrative program itself. Brigham City, 547
U.S. at 405, 126 S.Ct. 1943; see also City of
Indianapolis v. Edmond, 531 U.S. 32, 48,
121 S.Ct. 447, 148 L.Ed.2d 333 (2000)
(‘‘[W]e caution that the purpose inquiry in
this context is to be conducted only at the
programmatic level TTTT’’). Chief Justice
Roberts, writing for a unanimous Court in
Brigham City and citing Wells, the Court’s
most recent inventory search case, observed that the Fourth Amendment inquiry in the context of programmatic searches
and seizures has ‘‘nothing to do with discerning what is in the mind of the individual officer conducting the search,’’ but is
instead directed at ‘‘ensuring that the purpose behind the program is not ‘ultimately
indistinguishable from the general interest
in crime control.’ ’’ Brigham City, 547 U.S.
at 405, 126 S.Ct. 1943 (quoting Edmond,
531 U.S. at 44, 121 S.Ct. 447); see also
Wells, 495 U.S. at 4, 110 S.Ct. 1632 (noting
that ‘‘[t]he policy or practice governing
inventory searches should be designed to
produce an inventory’’).
We need not parse these lines of Supreme Court authority further and assess
whether an officer’s motive might prove

A0014

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

relevant to the validity of an inventory
search in circumstances not presented
here. Suffice it to say that as for the
Fourth Amendment inquiry in this case,
the present matter is on all fours with this
Court’s decision in Lopez, where we concluded that ‘‘if a search of an impounded
car for inventory purposes is conducted
under standardized procedures,’’ as this
one was, ‘‘that search falls under the inventory exception to the warrant requirement of the Fourth Amendment, notwithstanding a police expectation that the
search will reveal criminal evidence.’’ Lopez, 547 F.3d at 372; accord United States
v. McKinnon, 681 F.3d 203, 209–10 (5th
Cir. 2012).4 ‘‘If good faith is a prerequisite
of an inventory search,’’ we said there,
‘‘the expectation and motivation to find
criminal evidence’’ do not, without more,
‘‘constitute bad faith.’’ Id.
Here, as to programmatic purpose, nothing in the record suggests that the NYPD
inventory-search program at issue was but
‘‘a ruse for a general rummaging in order
to discover incriminating evidence.’’ Wells,
495 U.S. at 4, 110 S.Ct. 1632. The Patrol
Guide states that the program’s purpose is
to ‘‘protect property, ensure against unwarranted claims of theft, and protect uniformed members of the service and others
against dangerous instrumentalities.’’ A-39.
The NYPD detectives here testified that
inventory searches are conducted to serve
this purpose. See GA-6 (Detective Breton
testifying that inventory searches allow police to ‘‘take in any property that would
need to get vouchered’’); GA-40 (Detective
Latorre testifying that the importance of
4.

District courts in our Circuit have correctly
interpreted Lopez to mean that an officer’s
subjective motivations in performing an inventory search generally will not invalidate an
otherwise-reasonable search. See, e.g., United
States v. Wallace, 2016 WL 4367961, at *10
(S.D.N.Y. Aug. 11, 2016) (‘‘The subjective investigatory motivation of an officer does not
normally defeat the legality of an otherwise

57

inventory searches is ‘‘to make sure that
things are returned to the proper owner
and that the wrong things or dangerous
things are not returned to anyone’’); GA-92
(Detective Fichter testifying that inventory searches are conducted ‘‘to make sure
that all property is removed from inside
the car’’).
As to the detectives’ subjective motivations for search, we agree with the Lopez
panel that ‘‘the Supreme Court has not
required an absence of expectation of finding criminal evidence as a prerequisite to a
lawful inventory search.’’ 547 F.3d at 372.
Williams’s conduct in the wake of the first
inventory search alerted the detectives
that their initial search may have been
faulty, and that items requiring inventory
might still remain in the car. In these
circumstances, even assuming arguendo
that the detectives also expected that they
might find evidence of a crime during their
second search, this fact alone did not obviate the need for that second inventory
search. Nor did it render the second
search unreasonable under the Fourth
Amendment. The second search, like the
first, was a reasonable inventory procedure, and Williams’s suppression motion
was properly denied.
II.

The Evidentiary Rulings

[16] Williams next argues that his conviction must be reversed because the district court erred: (1) in declining to require
the government to introduce his exculpatory post-arrest statements at the time it
proper inventory search.’’); Bryant v. Village
of Greenwood Lake, 2013 WL 5952610, at *4
(S.D.N.Y. Nov. 6, 2013), aff’d sub nom, Bryant
v. Dasilva, 582 Fed.Appx. 56 (2d Cir. 2014)
(‘‘An otherwise-reasonable inventory search
will not be rendered unreasonable merely because an officer is motivated in part by investigatory purposes or by the expectation that
the search will yield evidence.’’).

A0015

58

930 FEDERAL REPORTER, 3d SERIES

introduced his inculpatory statements; and
(2) in admitting post-arrest statements and
other evidence of his affiliation with the
Crips. We review the district court’s evidentiary rulings ‘‘under a deferential abuse
of discretion standard, and we will disturb
an evidentiary ruling only where the decision to admit or exclude evidence was
‘manifestly erroneous.’ ’’ United States v.
McGinn, 787 F.3d 116, 127 (2d Cir. 2015)
(quoting United States v. Samet, 466 F.3d
251, 254 (2d Cir. 2006)). This standard has
not been met in the circumstances here.
A.

The Exculpatory PostArrest Statements

When Williams was interviewed after his
concealed weapon was discovered in the
center console of the Nissan, he denied
ownership of the car, telling the detectives,
in substance, that ‘‘the car wasn’t his,’’ but
‘‘was his girlfriend’s’’ or ‘‘belonged to the
girl.’’ A-255, 259. When the detectives informed him that they had found a gun in
the car, he at first denied knowing anything about the weapon, and claimed that
he was merely trying to return the car.
The detectives then asked who the gun
belonged to, and if Williams was ‘‘trying to
tell us something like it belongs to your
girlfriend?’’ A-255. Williams at that point
admitted that the gun belonged to him and
he wrote and signed a statement saying ‘‘I
had the gun.’’ See GA-47–48. Before trial,
the government moved to bar Williams
from introducing that portion of his postarrest statement in which he asserted, in
effect, that he didn’t know anything about
the weapon and was merely trying to return the car. The district court granted the
motion. On appeal, Williams argues that
this was reversible error because the district court’s ruling violated both the doctrine of completeness and the Fifth
Amendment. For the following reasons, we
conclude that the district court did not

abuse its discretion and that Williams’s
argument to the contrary is without merit.
* * *
[17–20] At common law, the doctrine of
completeness arose to permit a party
against whom a part of a writing or utterance has been introduced to ‘‘in his turn
complement it by putting in the remainder,
in order to secure for the tribunal a complete understanding of the total tenor and
effect’’ of the whole. 7 Wigmore on Evidence § 2113, at 653 (Chadbourn rev. ed.
1978). Fed. R. Evid. 106, which partially
codifies this common law completeness
doctrine, provides as follows:
If a party introduces all or part of a
writing or recorded statement, an adverse party may require the introduction, at that time, of any other part—or
any other writing or recorded statement—that in fairness ought to be considered at the same time.
Fed. R. Evid. 106. The purpose of the rule
is to correct, contemporaneously, the ‘‘misleading impression created by taking matters out of context,’’ Fed. R. Evid. 106
advisory committee note (1972 Proposed
Rules), and the rule ‘‘requir[es] generally
that adversaries be allowed to prevent
omissions that render matters in evidence
misleading,’’ Baker v. Goldman Sachs &
Co., 669 F.3d 105, 111 (2d Cir. 2012); see
United States v. Castro, 813 F.2d 571, 575–
76 (2d Cir. 1987) (noting that adverse party can demand that an omitted portion ‘‘be
placed in evidence if necessary to explain
the admitted portion, to place the admitted
portion in context, to avoid misleading the
jury, or to ensure fair and impartial understanding of the admitted portion’’); accord
United States v. Marin, 669 F.2d 73, 84
(2d Cir. 1982). The completeness doctrine,
however, has never ‘‘ ‘require[d] the admission of portions of a statement that are
neither explanatory of nor relevant to the
admitted passages.’ ’’ United States v.

A0016

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

Gupta, 747 F.3d 111, 139 (2d Cir. 2014)
(quoting United States v. Johnson, 507
F.3d 793, 796 (2d Cir. 2007) (internal quotation marks omitted)); see 7 Wigmore on
Evidence § 2113, at 656 (noting that because ‘‘sole purpose’’ in eliciting remainder
‘‘is to obtain a correct understanding of the
effect of the part first put in,’’ irrelevant
material not explanatory of the rest is not
required to be admitted). And ultimately,
it is for the district court, in its discretion,
to determine if the rule applies. See id.
[21, 22] Rule 106 does not cover oral
statements—as the advisory committee
note states, ‘‘[f]or practical reasons, [Rule
106] is limited to writings and recorded
statements and does not apply to conversations.’’ Fed. R. Evid. 106 advisory committee note (1972 Proposed Rules). However,
the common law rule of completeness is
substantially broader than Rule 106, covering ‘‘not only writings taken out of context,
but also TTT the truncated use of acts,
declarations, and conversations.’’ 21A
Kenneth W. Graham, Jr., Federal Practice
and Procedure § 5072 (2d ed. 2015) (emphasis added). And as the Supreme Court
made clear in Beech Aircraft Corp. v. Rainey, the common law doctrine persists in
the wake of Rule 106’s adoption. See 488
U.S. 153, 171–72, 109 S.Ct. 439, 102
L.Ed.2d 445 (1988); 21A Graham, supra,
§ 5073 n.1 (stating that Beech Aircraft
‘‘held that adoption of Rule 106 did not
repeal the common law completeness doc5.

Rule 611(a) allows district courts to ‘‘exercise reasonable control over the mode and
order of examining witnesses and presenting
evidence so as to TTT make those procedures
effective for determining the truth.’’ Fed. R.
Evid. 611(a) (emphasis added).

6.

The great majority of our sister circuits to
have addressed the issue have agreed. See
United States v. Verdugo, 617 F.3d 565, 579
(1st Cir. 2010) (noting that ‘‘the district court
retained substantial discretion under Fed. R.
Evid. 611(a) to apply the rule of completeness
to oral statements’’); United States v. Lopez-

59

trine; hence, that doctrine can be invoked
for completeness where Rule 106 does not
apply’’).
[23, 24] This Court has expressly recognized as to oral statements that Fed. R.
Evid. 611(a) both ‘‘empowers and obligates’’ district courts to require ‘‘a party
offering testimony as to an utterance to
present fairly the ‘substance or effect’ and
context of that statement,’’ just as the
common law doctrine requires. See Castro,
813 F.2d at 576.5 As a result, in this Circuit, the completeness principle applies to
oral statements through Rule 611(a), so
that ‘‘whether we operate under Rule 106’s
embodiment of the rule of completeness, or
under the more general provision of Rule
611(a), we remain guided by the overarching principle that it is the trial court’s
responsibility to exercise common sense
and a sense of fairness’’ so as to require
completion, whether contemporaneous or
on cross-examination, in instances in which
testimony regarding oral statements is
elicited in fragments that fail to present
‘‘ ‘the tenor of the utterance as a whole.’ ’’
Id. (quoting 7 Wigmore on Evidence
§ 2099, at 618); see also id. (quoting 1 J.
Weinstein & M. Berger, Weinstein’s Evidence ¶ 106[01], at 106–4 (1986 ed.) for the
proposition that ‘‘compared to Rule 106,
Rule 611(a) ‘provides equivalent control
over testimonial proof’ ’’ (emphasis added)).6
Medina, 596 F.3d 716, 734 (10th Cir. 2010)
(‘‘We have held the rule of completeness embodied in Rule 106 is substantially applicable
to oral testimony[ ] as well by virtue of Fed.
R. Evid. 611(a) TTTT’’ (internal quotation
marks omitted)); United States v. Holden, 557
F.3d 698, 705 (6th Cir. 2009) (‘‘The common
law version of the rule was codified for written statements in Fed. R. Evid. 106, and has
since been extended to oral statements
through interpretation of Fed. R. Evid.
611(a).’’); United States v. Range, 94 F.3d 614,
620–21 (11th Cir. 1996) (‘‘Fed. R. Evid.

A0017

60

930 FEDERAL REPORTER, 3d SERIES

Williams argues that the district court
erred in preventing him from eliciting testimony at trial from Detectives Latorre
and Fichter that he first denied knowledge
or ownership of the firearm found in the
center console of the Nissan before admitting, as both Detectives Latorre and Fichter testified, that the gun was his. In both
its brief and in oral argument, the government has suggested, to the contrary, that
Williams’s statements were hearsay when
proffered by him, and so inadmissible ‘‘unless they fell under some exception to the
hearsay rules.’’ Gov. Br. 30. The government also argues that the district court did
not abuse its discretion in concluding that
Williams’s initial claim to know nothing
about the gun neither explains his later
admissions nor dispels a misleading impression as to them, so that completion
was not required. We reject the government’s first argument, but are persuaded
by its second.
[25, 26] With respect to the government’s suggestion that evidence proffered
under the rule of completeness may be
excluded whenever not independently admissible due to the hearsay rule, this is
simply not correct. True, a party cannot
circumvent the hearsay rule simply by invoking the doctrine of completeness so as
to render otherwise inadmissible evidence
admissible for its truth. As Wigmore recognized, completing evidence ‘‘merely aids
in the construction of the utterance as a
whole, and is not itself testimony.’’ 7 Wigmore on Evidence § 2113, at 659. But when
the omitted portion of a statement is properly introduced to correct a misleading
impression or place in context that portion
already admitted, it is for this very reason
admissible for a valid, nonhearsay pur611(a) has been read to impose the same
[Rule 106] fairness standard upon conversations.’’ (citation omitted)); United States v.
Haddad, 10 F.3d 1252, 1258 (7th Cir. 1993)

pose: to explain and ensure the fair understanding of the evidence that has already
been introduced. As we have said before,
‘‘even though a statement may be hearsay,’’ it nevertheless ‘‘must be placed in
evidence if necessary to explain the admitted portion [of this statement], to place the
admitted portion in context, to avoid misleading the jury, or to ensure the fair and
impartial understanding of the admitted
portion.’’ Johnson, 507 F.3d at 796; see
also United States v. Coplan, 703 F.3d 46,
85 (2d Cir. 2012) (noting that evidence
proffered pursuant to Rule 106 is not properly excluded because it is hearsay but
must be assessed under ‘‘the Rule 106
standard’’). Indeed, the doctrine ‘‘can adequately fulfill its function only by permitting the admission of some otherwise inadmissible evidence when the court finds in
fairness that the proffered evidence should
be considered contemporaneously.’’ United
States v. Sutton, 801 F.2d 1346, 1368 (D.C.
Cir. 1986).
[27, 28] The government’s first argument is thus unavailing. We are persuaded,
however, by its second: that although it
was within the district court’s discretion to
permit Williams to elicit his initial false
exculpatory statements, Williams has
failed to show that the district court
abused its discretion in deciding to exclude
them. To require completion under the
doctrine of completeness, Williams had to
demonstrate that admission of his initial
statements denying ownership of the gun
was ‘‘necessary to explain’’ his later statements that the gun was his, ‘‘to place
[these statements] in context, to avoid misleading the jury, or to ensure fair and
impartial understanding’’ of these later
statements. Castro, 813 F.2d at 576.
(‘‘[T]he Seventh Circuit has applied a Rule
106 analysis with respect to oral statements
and testimonial proof.’’).

A0018

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

Williams did not make such a showing. It
is not uncommon for a suspect, upon interrogation by police, to first claim in a selfserving manner that he did not commit a
crime, only thereafter to confess that he
did. But the rule of completeness does not
require the admission of self-serving exculpatory statements in all circumstances, see
United States v. Jackson, 180 F.3d 55, 73
(2d Cir. 1999), and the mere fact that a
suspect denies guilt before admitting it,
does not—without more—mandate the admission of his self-serving denial. As the
district court here aptly pointed out,
Williams’s confession was ‘‘simply a reversal of his original position.’’ A-244–45.
[29] Williams argues that the juries at
his first two trials heard the exculpatory
portions of his post-arrest statements and
that the deadlock of these juries demonstrates the importance of this evidence and
the error in excluding it at his third trial.
We disagree. The standard of review here
is abuse of discretion. See Jackson, 180
F.3d at 73 (noting that district court’s application of rule of completeness doctrine
‘‘is reviewed only for abuse of discretion’’);
accord Castro, 813 F.2d at 576 (observing
that reviewing courts ‘‘must limit [themselves] to inquiring whether the district
judge’s actions amounted to an abuse of
discretion’’ in assessing rule of completeness determinations). And regardless
whether Williams’s exculpatory statements
were admitted in earlier proceedings, we
can discern no abuse of discretion in the
district court’s conclusion that Williams’s
statements that he didn’t know anything
about the gun, but was just bringing the
car back to his ‘‘girl,’’ did not ‘‘explain’’ his
7.

Indeed, even if we were to conclude that the
district court had erred in excluding
Williams’s self-serving denials, we would also
conclude in light of, inter alia, Hosam’s testimony, that reversal is not required because
any such error did not affect Williams’s substantial rights. Fed. R. Crim. P. 52(a); cf.

61

subsequent confession, and were thus not
necessary to correct a misleading impression arising from the admission of his inculpatory statements alone. We note, too,
that Williams’s third trial was the first
occasion on which the government called
Hosam, who explained how Williams came
to be driving the car she had rented and
who disclaimed any knowledge of the loaded weapon in that car. It is thus highly
speculative, at best, to contend that the
conviction here resulted from exclusion of
exculpatory portions of Williams’s post-arrest statements, when a more pertinent
difference between the third trial and its
predecessors was the introduction of direct
testimony to the effect that the weapon in
the car was in no way associated with the
person who had rented the vehicle.7
The analysis here is also sufficient to
explain why Williams’s Fifth Amendment
claim is meritless. Williams cites a footnote
from this Court’s decision in Marin, which
states that ‘‘when the government offers in
evidence a defendant’s confession and in
confessing the defendant has also made
exculpatory statements that the government seeks to omit, the defendant’s Fifth
Amendment rights may be implicated.’’
Marin, 669 F.2d at 85 n.6. But even assuming arguendo that the Fifth Amendment is implicated in such circumstances,
Marin itself makes clear that this is only
when the statement offered by the government is misleading by virtue of the portion it omits. See id. (‘‘In such circumstances TTT the Fifth Amendment right to
remain silent is violated when the omission
paints a distorted picture TTT which the
defendant is powerless to remedy without
Sutton, 801 F.2d at 1370–71 (noting that although defendant should have been permitted
to introduce excluded portions of his recorded conversations, such error did not require
reversal where ‘‘substantial rights’’ were
unaffected and error ‘‘did not substantially
influence’’ the verdict).

A0019

62

930 FEDERAL REPORTER, 3d SERIES

taking the stand.’’ (internal quotation
marks and brackets omitted)). As already
noted, the district court did not err in
concluding that Williams’s confession was
not misleading and that the omitted exculpatory portions of his post-arrest statements did not explain that confession,
which was ‘‘simply a reversal of his original position.’’ A-244. Thus, Williams’s Fifth
Amendment claim is also without merit.
B.
1.

The ‘‘Gang’’ Evidence

Williams’s Post-Arrest Statements

Williams next argues that the district
court erred in admitting his statements to
police, made after he confessed to possessing the gun, that he was a member of the
Crips gang and was ‘‘willing to work’’ with
police to ‘‘get firearms and narcotics.’’ GA105. Before trial, the government moved in
limine to admit (1) evidence that Williams
had previously used the center console of a
Nissan to hide fraudulent credit cards; and
(2) these post-arrest statements.8 The district court granted the motion in part,
permitting the post-arrest statements to
be admitted but not the evidence about
Williams’s prior use of the center console.
On appeal, Williams argues that the statements constituted impermissible propensity evidence pursuant to Fed. R. Evid.
404(b) and were unfairly prejudicial under
Fed. R. Evid. 403. Appellant Br. 42. For
the following reasons, we again disagree.
[30–32] Rule 404(b) states that ‘‘[e]vidence of a crime, wrong, or other act is not
admissible to prove a person’s character in
order to show that on a particular occasion
the person acted in accordance with the
character.’’ Fed. R. Evid. 404(b). In other
words, ‘‘Rule 404(b) bars the admission of
defendant’s uncharged crimes to prove
8.

Williams thus had ample pretrial notice that
the government intended to offer this evi-

propensity to commit the crime charged.’’
United States v. Concepcion, 983 F.2d 369,
392 (2d Cir. 1992). At the same time, pursuant to this Circuit’s ‘‘inclusionary approach’’ to such evidence, other-crimes evidence is admissible if offered ‘‘for any
purpose other than to show a defendant’s
criminal propensity.’’ United States v. Mejia, 545 F.3d 179, 206 (2d Cir. 2008) (emphasis added). And our review of the district court’s admission of such evidence is
limited: ‘‘We review TTT for abuse of discretion, and the district court’s ruling
stands unless it was arbitrary and irrational.’’ Id.
[33] Here, Williams’s admission of
gang membership and offer to assist police
in finding drugs and weapons was admitted not to show that he had a propensity to
act in a particular way, but to meet the
defense argument that Williams’s ‘‘socalled’’ confession was not a confession at
all, Trial Tr. 225, because ‘‘we don’t know
from the face’’ of the written confession
‘‘what that means when he says, I had the
gun.’’ Trial Tr. 228–29. More specifically,
the defense argued at trial that Williams
did not confess, and that his handwritten
statement, ‘‘I had the gun,’’ was not an
admission to knowing possession of the
weapon, but simply an acknowledgment by
Williams that he was driving the car in
which the gun was found:
Let’s focus on this business about ‘‘I
had the gun,’’ okay? What does that
mean? Does that mean I knew the gun
was in the console that day? No.
I was driving the car. They say they
found the gun in the car. I guess I had
the car. TTT
Trial Tr. 226 (defense summation).
Williams’s statements to police shortly afdence at trial. See Fed. R. Evid. 404(b).

A0020

U.S. v. WILLIAMS
Cite as 930 F.3d 44 (2nd Cir. 2019)

ter executing his handwritten confession
rebutted this argument by suggesting, instead, that Williams first admitted to
knowing possession of the loaded firearm
and then, contemporaneously with this admission, sought to curry favor with police
by telling them that he was in a position to
cooperate in other cases. Cf. United States
v. Inserra, 34 F.3d 83, 89 (2d Cir. 1994)
(noting that other-crimes evidence may be
admitted ‘‘to provide the jury with the
complete story of the crimes charged by
demonstrating the context of certain
events relevant to the charged offense’’).
District courts have significant discretion in determining whether other-crimes
evidence is admissible for a proper purpose. See United States v. Mercado, 573
F.3d 138, 141–42 (2d Cir. 2009). Here,
Williams’s post-arrest offer to assist police
tended to clarify that his written statement
‘‘I had the gun’’ was not an admission to
haplessly driving a car with a gun in it
when he spoke to police, as his counsel
contended in summation, but was instead
an acknowledgement that Williams knowingly possessed the weapon in the Nissan,
as he admitted to police orally before offering to assist them in making other
cases.9 Cf. United States v. Quinones, 511
F.3d 289, 309 (2d Cir. 2007) (admitting
evidence of uncharged criminal conduct in
order to clarify another statement that
otherwise ‘‘ma[d]e no sense’’). Williams’s
statement that he was in a gang and in a
position to assist police in locating drugs
and guns was also independently probative
as to Williams’s intent to possess the loaded weapon found in the Nissan that day,
and as to his opportunity to obtain a weapon. Intent and opportunity are proper purposes under Rule 404(b), and courts routinely admit evidence of gang membership
9.

Notably, Williams’s oral admissions, as described by Detectives Latorre and Fichter at
trial, had none of the ambiguity of his written

63

in circumstances like these where the evidence is relevant for a proper purpose.
See, e.g., United States v. Gordon, 496
Fed.Appx. 579, 582–83 (6th Cir. 2012) (admitting evidence of gang membership as
relevant to motive and opportunity to possess a gun); United States v. Santiago, 46
F.3d 885, 889–90 (9th Cir. 1995) (admitting
evidence of gang membership as ‘‘relevant
to the issue of motive’’); United States v.
Mills, 704 F.2d 1553, 1559–60 (11th Cir.
1983) (same); see also United States v.
Jobson, 102 F.3d 214, 221 (6th Cir. 1996)
(‘‘We hold TTT that defendant’s gang membership would be admissible to establish
his opportunity to commit the crime [of
gun possession].’’).
[34] Williams’s claim that the challenged statements were unfairly prejudicial under Rule 403 is also unavailing. Rule
403 provides that evidence may be excluded ‘‘if its probative value is substantially
outweighed by a danger TTT of unfair prejudice, confusing the issues, [or] misleading
the jury.’’ Fed. R. Evid. 403. As outlined
above, the statements were probative for
non-propensity purposes. And the district
court mitigated any potential prejudice by
issuing a limiting instruction restricting
the jury’s use of the gang-affiliation evidence to proper Rule 404(b) grounds, telling the jury ‘‘not [to] consider it for any
other reason whatsoever.’’ GA-127; cf.
Mercado, 573 F.3d at 141–42 (declining to
conclude that district court abused its discretion in admitting other-crimes evidence
that was ‘‘relevant and highly probative as
to knowledge and intent’’ and was ‘‘accompanied by a careful and thorough instruction limiting the evidence to relevant Rule
404 grounds’’). The district court’s ‘‘first
hand exposure to the witnesses, jury, and
other evidence’’ at Williams’s trial put it in
confession. See, e.g., GA-47 (‘‘It was mine, I
wasn’t going to hurt anybody with it, I’m
sorry.’’).

A0021

64

930 FEDERAL REPORTER, 3d SERIES

a ‘‘superior position to evaluate the likely
impact’’ of the challenged statements on
the jury. See Mercado, 573 F.3d at 142
(quoting Li v. Canarozzi, 142 F.3d 83, 88
(2d Cir. 1998)). The court decided that the
statements were not unfairly prejudicial
and we decline to second-guess that decision.
2.

The Facebook Images

Williams argues, finally, that the district
court erred in admitting images from his
Facebook page. The images depict
Williams making hand signs—signs that
Detective Fichter testified were gang
signs, based on the detective’s ‘‘training
and experience as a gang squad detective.’’
GA-109. Williams contends, as he did with
his post-arrest statements, that these images constitute impermissible propensity
evidence. The government argues in response that Williams waived this argument
by intentionally declining to raise it during
trial. We agree with the government.
[35, 36] To preserve an evidentiary
claim on appeal, a party must ‘‘timely object[ ]’’ and ‘‘state[ ] the specific ground,
unless it [is] apparent from context.’’ Fed.
R. Evid. 103(a). This Court ‘‘ordinarily applies Rule[ ] 103(a) strictly,’’ and where a
party ‘‘made no objection that clearly stated the specific ground now asserted on
appeal,’’ a claim of error is ‘‘unavailing.’’
United States v. Hutcher, 622 F.2d 1083,
1087 (2d Cir. 1980) (quoting United States
v. Rubin, 609 F.2d 51, 62–63 (2d Cir.
1979)). Here, when the government moved
to admit the Facebook images, Williams
made a ‘‘general objection.’’ GA-107. The
following colloquy was then held at side
bar:
THE COURT: All right. As I understand, your only standing objection that
you’ve made to this was based on the
delay that the government exhibited in
seeking the search for it. Is there anoth-

er basis TTT? Because you said my general objection.
MR. PADDEN: I meant my previous
objection, my previous motion.
THE COURT: So you don’t have a relevance objection or anything like that. It
was simply the objection that was
lodged in your papers?
MR. PADDEN: Yes.
THE COURT: Only that?
MR. PADDEN: Yes.
THE COURT: All right. Then [if] that’s
the only objection, then the objection is
overruled.
GA-107. This exchange demonstrates that
Williams did not make an objection clearly
stating the impermissible-propensity-evidence grounds now asserted on appeal.
The objection was thus not preserved at
trial.
[37–41] Where an objection has not
been preserved, this Court has ‘‘discretion
to correct errors that were forfeited because not timely raised in the district
court, but no such discretion applies when
there has been true waiver.’’ United States
v. Spruill, 808 F.3d 585, 596 (2d Cir. 2015)
(citing Fed. R. Crim. P. 52(b); and United
States v. Olano, 507 U.S. 725, 731–34, 113
S.Ct. 1770, 123 L.Ed.2d 508 (1993)). The
distinction between forfeiture and waiver
is therefore crucial, because ‘‘forfeiture
does not preclude appellate consideration
of a claim in the presence of plain error,
whereas waiver necessarily ‘extinguishes’
the claim altogether.’’ United States v. YuLeung, 51 F.3d 1116, 1121 (2d Cir. 1995)
(citing Olano, 507 U.S. at 733, 113 S.Ct.
1770). A claim is forfeited ‘‘when a defendant, in most instances due to mistake or
oversight, fails to assert an objection.’’
Spruill, 808 F.3d at 596. A claim is waived,
on the other hand, when a defendant
makes an ‘‘intentional decision not to assert a right’’ or, put another way, ‘‘act[s]

A0022

TWEED-NEW HAVEN AIRPORT AUTHORITY v. TONG
Cite as 930 F.3d 65 (2nd Cir. 2019)

intentionally in pursuing, or not pursuing,
a particular course of action.’’ Id. at 597.
And our caselaw makes clear that an identifiable tactical benefit is not a ‘‘prerequisite to identifying waiver where the totality of circumstances otherwise demonstrate
the requisite intentional action.’’ Id. at 599.
[42] The totality of the circumstances
here convincingly shows that Williams acted intentionally in declining to object on
any grounds other than the government’s
alleged undue delay. The district court
specifically asked Williams not once, but
twice, if he had any other objections—
whether based on ‘‘relevance’’ or ‘‘anything
like that.’’ GA-107. Williams confirmed
both times that he had no other objections.
Cf. Spruill, 808 F.3d at 599 (finding true
waiver where defendant’s counsel did not
‘‘fall asleep at the wheel’’ but instead ‘‘actively engaged in the matter and agreed to
every action taken by the district court’’).
This is enough to resolve the issue. The
argument that the Facebook images constituted impermissible propensity evidence
is waived.
CONCLUSION
For the foregoing reasons, we AFFIRM
the judgment of the district court.

65

City of New Haven, Intervenor
Plaintiff-Appellant,
v.
William TONG, in his official capacity
as Attorney General for the State of
Connecticut, Defendant-Appellee.*
No. 17-3481-cv; 17-3918-cv
August Term 2018
United States Court of Appeals,
Second Circuit.
Argued: December 12, 2018;
Decided: July 9, 2019
Background: Airport authority that operated city-owned airport brought action
against Connecticut attorney general,
seeking declaratory judgment that Connecticut statute limiting runway length
was invalid. The United States District
Court for the District of Connecticut, Robert A. Richardson, United States Magistrate Judge, 2017 WL 4400751, concluded
that authority lacked standing, and that
Federal Aviation Act (FAAct) did not
preempt Connecticut statute. Authority
appealed.
Holdings: The Court of Appeals, Parker,
Circuit Judge, held that:
(1) authority demonstrated injury-in-fact
arising out of Connecticut statute;
(2) authority demonstrated that its alleged
injury was caused by statute;

,
TWEED-NEW HAVEN AIRPORT
AUTHORITY, PlaintiffAppellant,
* The Clerk of Court is respectfully directed to

(3) authority established that its injury
would have been redressed by favorable decision, demonstrating Article
III standing;
(4) though authority was a political subdivision, it was not precluded from raising preemption challenge against state
government under Supremacy Clause;
and
amend the official caption as indicated above.

A0023

Case 1:15-cr-00499-LDH Document 28 Filed 08/31/16 Page 1 of 9 PageID #: 121

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
--------------------------------------------------X
UNITED STATES OF AMERICA,

15-CR-499 (SJ)
ORDER ADOPTING
REPORT AND
RECOMMENDATION
-against-

ANDY WILLIAMS
Defendant.
-------------------------------------------------X

JOHNSON, Senior District Judge:
Andy Williams (“Defendant” or “Williams”) has pled not guilty to a singlecount indictment, charging him with being a Felon in Possession of a Firearm in
violation of 18 U.S.C. § 922(g)(1). Defendant moves to suppress the firearm and
other items seized by police officers following a stop and search of his vehicle on
August 27, 2015. Presently before the Court are transcripts from the suppression
hearings held on June 7, 2016 and June 27, 2016; the parties’ memoranda; a Report
and Recommendation (“Report”) by Magistrate Judge Cheryl L. Pollak denying
Defendant’s motion to suppress; and Defendant’s objections (“Objections”).
Familiarity therewith is assumed. (See Docket numbers (“Dkt. Nos.”) 22-27.)
1

A0024

Case 1:15-cr-00499-LDH Document 28 Filed 08/31/16 Page 2 of 9 PageID #: 122

Within 14 days of service of the recommendation, any party may file written
objections to the magistrate’s Report. See 28 U.S.C. § 636(b)(1). Upon de novo
review of those portions of the record to which objections were made, the district
court judge may affirm or reject the recommendations. Id. The Court is not required
to review, under a de novo or any other standard, the factual or legal conclusions of
the magistrate judge as to those portions of the report and recommendation to which
no objections are addressed. See Thomas v. Arn, 474 U.S. 140, 150 (1985).

1. Background
Defendant makes three arguments in support of his motion to dismiss: (1) the
NYPD’s initial stop and detention of defendant’s car was unlawful because the
officers had no reasonable suspicion to believe that a crime or traffic violation had
been committed; (2) even if the initial stop was valid, his arrest for unauthorized use
of a vehicle and reckless driving was without basis because he was, in fact,
authorized by Hertz to drive the car; and (3) the second, warrantless search of the car
was unlawful and the gun and his post-arrest statements should be suppressed. (See
Letter Brief in Support of Motion to Suppress (“Def. Ltr.”), Dkt. No. 24.)1
Defendant also asserts blanket objections to Judge Pollak’s Report and makes two

The Parties initially disputed Defendant’s standing to challenge the vehicle search. However, the
issue is now moot as the evidence produced at the hearing shows that Defendant had standing to
challenge the search and the Government has accordingly withdrawn its objection. (See Def. Ltr. p.
2 and Government’s June 7, 2016 post-hearing submission at 9.)
1

2

A0025

Case 1:15-cr-00499-LDH Document 28 Filed 08/31/16 Page 3 of 9 PageID #: 123

additional, brief points: first, that the Court erred in determining the second search
was conducted pursuant to standardized NYPD procedure; and second, that the
search was investigatory and not valid under the Fourth Amendment.

(See

Objections pp. 1-2.)

2. Discussion
As an initial matter, only two witnesses, Detective Dominick Latorre
(“Latorre”) and Detective Ashley Breton (“Breton”), testified at the suppression
hearing. Judge Pollak, who observed the detectives, credited their testimony in its
entirety. (See Report, p. 1.) Defendant does not attempt to show that the detectives
were unreliable witnesses. Therefore, this Court also credits their testimony.
A. The NYPD’s arrest of Defendant was lawful.
The Fourth Amendment right to be secure against unreasonable searches and
seizures

extends

to

vehicle

stops.

U.S.

Const.

amend.

IV;

Whren v. United States, 517 U.S. 806, 809–10, (1996). “[T]he Fourth Amendment
requires that an officer making a traffic stop have probable cause or reasonable
suspicion that the person stopped has committed a traffic violation or is otherwise
engaged in or about to be engaged in criminal activity.” United States v. Wilson, 699
F.3d 235, 242 (2d Cir. 2012) (quoting United States v. Harrison, 606 F.3d 42, 45 (2d
Cir.2010)). The question is whether the arresting officer “had probable cause to

3

A0026

Case 1:15-cr-00499-LDH Document 28 Filed 08/31/16 Page 4 of 9 PageID #: 124

believe that a traffic violation occurred or was occurring in the officer’s presence...”
United States v. Scopo, 19 F.3d 777, 784 (2d Cir. 1994).
The New York State Vehicle and Traffic Laws (“N.Y. V.T.L.”) §§ 1212 and
1180 prohibit speeding and unreasonable interference “with the free and proper use
of the public highway, or unreasonably endanger[ing] users of the public highway.”
Under New York Penal Law (“N.Y.P.L.”), a traffic infraction, such as the
aforementioned, is an offense for which NYPD officers are authorized to make a
custodial arrest. See N.Y. C.P.L. § 140.10(1) (“[A] police officer may arrest a person
for . . . [a]ny offense when he or she has reasonable cause to believe that such person
has committed such offense in his or her presence.”); N.Y.P.L. § 10.00(1) (“‘offense’
means conduct for which a sentence to a term of imprisonment or to a fine is provided
by any law of this state or by any law, local law or ordinance of a political subdivision
of this state, or by any order, rule or regulation of any governmental instrumentality
authorized by law to adopt the same.”); N.Y. V.T.L. § 155 (“For purposes of arrest
without a warrant, pursuant to article one hundred forty of the criminal procedure
law, a traffic infraction shall be deemed an offense.”).
Latorre testified that he observed Defendant driving at a high rate of speed
and weaving in and out of traffic without signaling. (June 7, 2016 Transcript (“Tr.”)
p. 12.) Lattore could tell Defendant was speeding based on the other vehicles on the
road and because Latorre had to “speed up past the speed limit in order to stay in
place with [Defendant’s] vehicle.” (Id.) After pulling the vehicle over, Latorre asked
4

A0027

Case 1:15-cr-00499-LDH Document 28 Filed 08/31/16 Page 5 of 9 PageID #: 125

to see Defendant’s license and registration. (Tr. 13-14.) Defendant explained the car
was a Hertz rental car and he showed Latorre the rental agreement. (Tr. 14.) The
rental agreement did not bear Defendant’s name, and Latorre arrested Defendant for
reckless driving and the unauthorized use of a rental vehicle. (Tr. 14-16.) Defendant
was transported to the 63rd Precinct along with the rental car. (Tr. 16.)
There is no question that Latorre had “probable cause to believe that a traffic
violation was occurring in the officer’s presence.” See Scopo, 19 F.3d at 784.
Latorre observed Defendant weaving in and out of traffic, without signaling, at a high
rate of speed. (Tr. 12.) These actions violated New York State traffic laws, for which
Defendant could be arrested. See N.Y. V.T.L. §§ 1212 and 1180; N.Y. C.P.L. §
140.10(1). Although evidence at the hearing demonstrated that Defendant was, in
fact, an authorized driver of the vehicle, the issue is whether Latorre knew that
information when he pulled over Defendant. Without documentation showing that
Defendant was an authorized driver, Latorre also had probable cause to arrest him
for unauthorized use of a vehicle. See N.Y.P.L. 165.05 (“Unauthorized use of a
vehicle in the third degree is a class A misdemeanor.”); Jaegly v. Couch, 439 F.3d
149, 153 (2d Cir. 2006); Bernard v. United States, 25 F.3d 98, 102-03 (2d Cir. 1994)
(“[P]robable cause can exist even where it is based on mistaken information, so long
as the arresting officer acted reasonably and in good faith in relying on that
information.”). In any event, Defendant’s speeding and reckless driving were alone
sufficient to establish probable cause for Defendant’s arrest.
5

A0028

Case 1:15-cr-00499-LDH Document 28 Filed 08/31/16 Page 6 of 9 PageID #: 126

B. The second search of the car was lawful.
At the precinct, Lattore was taken inside for processing, while the car was
parked outside for an inventory search. (Tr. 16, 17, 47, 48.) According to the New
York Police Department Patrol Guide (“Patrol Guide”), the purpose of an inventory
search is to: “protect property, ensure against unwarranted claims of theft, and protect
uniformed members of the service and others against dangerous instrumentalities.”
Officers are required to search the interior of the vehicle thoroughly. (Patrol Guide,
p.1) Force may be used only if it can be done with minimal damage, unless: officers
reasonably suspect that the item contains weapons, explosives, hazardous materials
or contraband; the items are in plain view; or the contents can be inferred from the
outward appearance of the container. (Id.) Officers conducting the inventory search
uncovered a black mask, gloves and duct tape “in plain view.” (Tr. 18, 19, 49.)
While Latorre was in the process of fingerprinting Defendant, Defendant
asked to make a phone call. (Tr. 18, 19, 45, 49.) Latorre was standing “two to three
feet” away from Defendant and overheard Defendant tell someone on the phone that
they “need to come get this car right now, they’re looking to tow it. You need to
come get his car up out of here.” (Tr. 19, 50.) Defendant appeared nervous and was
speaking quickly. (Id.) Latorre believed that Defendant was concerned about the car
remaining in police custody and thought he may have missed “something of value”
during the initial search. (Tr. 19, 54.)

6

A0029

Case 1:15-cr-00499-LDH Document 28 Filed 08/31/16 Page 7 of 9 PageID #: 127

Latorre returned to the vehicle and asked Breton, who was walking into the
precinct, to assist with the search. (Tr. 19, 20.) The detectives searching the car
informed Breton that they had just arrested someone and were performing an
inventory search of the vehicle. (Tr. 65.) Breton has experience with inventory
searches and normally searches for “hidden compartments.” (Tr. 65-66.) Breton
began searching the vehicle, and within “one to two minutes,” uncovered a gun
hidden behind a plastic panel on the side of the front console. (Tr. 20-21, 66, 70.)
The panel snapped off with Breton’s fingertips, did not require tools and “not much
force” to remove. (Tr. 66, 68, 70; Government’s Exhibit (“GX”) 4.) Breton alerted
the other detectives and photographed the compartment and the gun. (Tr. 70-71, 80;
GX 4.) Defendant was then charged and arraigned on the firearm charge as well as
the vehicle violations. (Tr. 30-31.)
It is well settled law that “when law enforcement officials take a vehicle into
custody, they may search the vehicle and make an inventory of its contents without
need for a search warrant and without regard to whether there is probable cause to
suspect that the vehicle contains contraband or evidence of criminal conduct.” United
States v. Lopez, 547 F.3d 364, 369 (2d Cir. 2008). An inventory search is lawful if
it is conducted “in good faith pursuant to ‘standardized criteria … or established
routine.’” United States v. Thompson, 29 F.3d 62, 65 (2d Cir. 1994) (quoting Florida
v. Wells, 495 U.S. 1, 4 (1990)). Even if officers expect to find evidence of a crime,

7

A0030

Case 1:15-cr-00499-LDH Document 28 Filed 08/31/16 Page 8 of 9 PageID #: 128

an inventory search is permissible provided that it follows standard procedure. See
Lopez, 547 F.3d at 370-372.
Here, Latorre returned to the car because he believed he missed something
of value, including contraband or other items that could have been vouchered for
safekeeping. (Tr. 19, 54, 55.) This comports with the N.Y.P.D. Patrol Guide, which
requires a “thorough” search of the vehicle, and its stated purpose: “to protect
property, ensure against unwarranted claims of theft, and protect uniformed members
of the service and others against dangerous instrumentalities.” (Patrol Guide, p. 1.)
That Latorre testified that he might find contraband in addition to other items does
not indicate bad faith or rise to the level of an investigation. See United States v.
Arango-Correa, 851 F.2d 54, 59 (2d Cir. 1988); Lopez, 547 F.3d at 370-372.
Moreover, when Breton joined the search of the vehicle, he was informed the officers
were conducting an inventory search and he proceeded to search the vehicle in that
manner. (Tr. 65.) In Breton’s experience, an inventory search consists of looking “for
hidden compartments” and he had observed items hidden behind panels like the one
at issue here “more than once.” (Tr. 65.)
Defendant points to no evidence that restricts an inventory search to a single
moment in time. He likewise fails to show that the officers’ motives or actions were
beyond the scope of an inventory search, or that anything more than minimal force
was used to open the panel. Judge Pollak found the officers’ testimony credible and
upon review of the evidence, this Court has no reason to disturb that finding.
8

A0031

Case 1:15-cr-00499-LDH Document 28 Filed 08/31/16 Page 9 of 9 PageID #: 129

3. Conclusion
The Court has considered Defendant’s remaining claims and finds them to be
without merit. Upon de novo review of the recommendations, this Court adopts and
affirms Magistrate Judge Pollak’s Report in its entirety.

SO ORDERED.

Dated: August 31, 2016
Brooklyn, NY

_____________/S/___________________
Sterling Johnson, Jr., U.S.D.J.

9

A0032

